BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Amici Curiae International
Municipal Lawyers Association, Michigan Municipal
League, Texas Municipal League, Louisiana Municipal
Association, Kentucky League of Cities, and Tennessee
Municipal Attorneys Association in Support of
Petitioners for Writ of Certiorari in 20-1029, City of

Austin, Texas, v. Reagan National Advertising of
Texas, Incorporated, et al., were sent via Three Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Three Day Service and e-mail to the following
parties listed below, this 8th day of February, 2021:
Renea Hicks
Law Office of Max Renea Hicks
P.O. Box 303187
Austin, TX 78703
(512) 480-8231
rhicks@renea-hicks.com
Anne L. Morgan, City Attorney
Meghan L. Riley, Chief-Litigation
H. Gray Laird III, Assistant City Attorney
City of Austin-Law Department
P.O. Box 1546
Austin, Texas 78767
(512) 974-2268
anne.morgan@austintexas.gov
meghan.riley@austintexas.gov
gray .laird@austintexas. gov

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Russ Horton
George Brothers Kincaid & Horton, L.L.P.
1100 Norwood Tower
114 West 7th St.
Austin, TX 78701
(512) 495-1400
rhorton@gbkh.com
J. Allen Smith
Katherine L. Killingsworth
SettlePou
3333 Lee Parkway
8th Floor
Dallas, TX 75219
(214) 520-3300
asmith@settlepou.com
kkillingsworth@settlepou.com

Counsel for Respondents
Charles W. Thompson, Jr.
Amanda Kellar Karras
Counsel of Record
Erich R. Eiselt
Deanna Shahnami
International Municipal Lawyers Association
51 Monroe Street, Suite 404
Rockville, MD 20850
(202) 466-5424
akellar@imla.org

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 8, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

t;;,t-,,1.)sdo

Notary Public
[seal]

<f I

~

